<html>
<title> - THE DISRUPTER SERIES: ADVANCED ROBOTICS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                THE DISRUPTER SERIES: ADVANCED ROBOTICS

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2016

                               __________

                           Serial No. 114-169
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                           
                           
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
               
                              _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 22-678 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                        
                        
                        
                        
                        
                        
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    PETER WELCH, Vermont
DAVID B. McKINLEY, West Virginia     BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia         YVETTE D. CLARKE, New York
GUS M. BILIRAKIS, Florida            DAVID LOEBSACK, Iowa
BILL JOHNSON, Ohio                   KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina     Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          YVETTE D. CLARKE, New York
GREGG HARPER, Mississippi            JOSEPH P. KENNEDY, III, 
BRETT GUTHRIE, Kentucky                  Massachusetts
PETE OLSON, Texas                    TONY CARDENAS, California
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            PETER WELCH, Vermont
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     2
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     3
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     6

                               Witnesses

Dean Kamen, Founder, DEKA Research...............................     8
    Prepared statement...........................................    10
Sridhar Kota, Ph.D., Herrick Professor of Engineering, University 
  of Michigan....................................................    11
    Prepared statement...........................................    13
Meg Leta Jones, Ph.D., Assistant Professor, Communication, 
  Culture, and Technology, Georgetown University.................    15
    Prepared statement...........................................    17
Jeff Burnstein, President, Robotics Industries Association.......    31
    Prepared statement...........................................    33


                THE DISRUPTER SERIES: ADVANCED ROBOTICS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2016

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:40 a.m., in 
Room 2322 of the Rayburn House Office Building, Hon. Michael C. 
Burgess (chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Harper, Guthrie, Olson, Bilirakis, Brooks, Upton (ex officio), 
Schakowsky, and Kennedy.
    Staff present: Gary Andres, Staff Director; James Decker, 
Policy Coordinator, Commerce, Manufacturing, and Trade; Graham 
Dufault, Counsel, Commerce, Manufacturing, and Trade; Blair 
Ellis, Digital Coordinator/Press Secretary; Melissa Froelich, 
Counsel, Commerce, Manufacturing, and Trade; Giulia 
Giannangeli, Legislative Clerk, Commerce, Manufacturing, and 
Trade, Environment and the Economy; Paul Nagle, Chief Counsel, 
Commerce, Manufacturing, and Trade; Mark Ratner, Policy Advisor 
to the Chairman; Olivia Trusty, Professional Staff Member, 
Commerce, Manufacturing, and Trade; Michelle Ash, Democratic 
Chief Counsel, Commerce, Manufacturing, and Trade; Lisa 
Goldman, Democratic Counsel, Commerce, Manufacturing, and 
Trade; Caroline Paris-Behr, Democratic Policy Analyst; Matt 
Schumacher, Democratic Press Assistant.
    Mr. Burgess. Very well. The Subcommittee on Commerce, 
Manufacturing, and Trade will now come to order. The Chair 
recognizes himself for 5 minutes for the purpose of an opening 
statement, and good morning and welcome to our witnesses.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Welcome to our hearing on advanced robotics, technology 
that has made its way into the United States in a variety of 
sectors.
    This is the latest installment in our Disrupter Series 
covering technologies that are redefining our lives and 
improving our economic condition. It is 2016, and so many 
people my age will, of course, remember the cartoon ``The 
Jetsons'' and coming home to Rosie the Robot, who always had 
George Jetson's stuff all aligned for him, and many of us ask 
ourselves, "Where is Rosie the Robot today?"
    Well, maybe today we are going to learn if we are not 
perhaps a little bit closer. But we are living in a world where 
you can actually use your iPhone to ask Siri, Alexa, or Cortana 
any question and get a real-time, accurate, and perhaps 
whimsical response.
    Already advanced robotics are integrated into our economy 
with increasingly complex application, from manufacturing 
floors to surgical suites to fashion shows, as we learned from 
the lead on Drudge this morning.
    Smart prosthetics are changing the lives of amputees and 
the elderly. Even some technologies that we have explored in 
previous Disrupter Series hearings leverage advanced robotic 
technology including the Internet of things and drones.
    I look forward to hearing from our panel of witnesses about 
the real-world advanced robotics applications that students, 
academics, and industry professionals are all working toward.
    Each of our witnesses today can give us a different view on 
the emerging trends and challenges presented by advanced 
robotics and technology.
    The future workforce trends are particularly interesting. 
If it is true that more jobs will include some automation 
component in the coming decades, understanding how our students 
and professionals of all ages are able to acquire the skills 
necessary to adapt to this changing landscape is important to 
us as policy makers.
    As with any new technology, it is critical to examine the 
benefits of the technology in weighing important consumer 
protection questions. Throughout our history, Americans have 
adopted and adjusted to economic shifts presented by new 
technology.
    In our examination of these issues, it will be important to 
understand how consumers and businesses will be using the 
technologies and how they will be protected while preserving 
the flexibility and ingenuity of innovators that are driving 
this market forward.
    Again, I want to thank our witnesses for taking the time to 
inform us about the exciting applications and the future 
potential benefits of advanced robotics.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Good morning and welcome to our hearing examining advanced 
robotics--technology that has made its way into the U.S. 
economy in a variety of sectors. Advanced robotics' are 
integrated into our economy with increasingly complex 
applications, from manufacturing floors to surgical suites.
    This is the latest installment of our subcommittees' 
Disrupter Series covering a variety of innovative technologies 
that are redefining our lives and improving our economic 
condition.
    It is 2016, and we are not yet living in a Jetsons' world 
where Rosie the Robot greets you when you get home. However, we 
are living in a world where you can ask Siri, Alexa, or Cortana 
any question and get a real-time, accurate, perhaps whimsical, 
response.
    Smart prosthetics are changing the lives of amputees and 
the elderly. Even some technologies that we have explored in 
previous Disrupter Series hearings leverage advanced robotic 
technology including the Internet of Things and drones.
    I look forward to hearing from our panel of witnesses about 
the real world advanced robotics applications that students, 
academics, and industry professionals are working toward. Each 
of the witnesses here today can give us a different view of the 
emerging trends and challenges presented by advanced robotics 
technology.
    The future workforce trends are particularly interesting. 
If it is true that more jobs will include some automation 
component in the coming decades, understanding how are students 
and professionals of all ages able to acquire the skills 
necessary to adapt to this changing landscape is important.
    As with any new technology, it is critical to examine the 
benefits of the technology and weigh important consumer 
protection questions. Throughout our history, Americans have 
adopted and adjusted to economic shifts presented by new 
technology.
    In our examination of these issues, it will be important to 
understand how consumers and businesses using these 
technologies will be protected while preserving the flexibility 
and ingenuity of innovators that are driving this market 
forward.
    I thank the witnesses for taking the time to inform us 
about the applications and future potential of advanced 
robotics. I look forward to a thoughtful and engaging 
discussion.

    Mr. Burgess. So we look forward to a thoughtful and engaged 
discussion, and I would like to yield the rest of the time to 
the gentlelady from Tennessee, Mrs. Blackburn, vice chairman of 
the full committee.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    I do want to welcome our witnesses. I had the opportunity 
to meet Mr. Kamen a few months ago and talk with him about what 
he is doing in the field of robotics and the importance of that 
specifically to my district in Tennessee.
    Brentwood Academy, which is in my district, the Iron Eagles 
are the international champions. They're putting an emphasis on 
robotics, and not only is it BA, but Vanderbilt University is 
developing some robotic devices for utilization of children 
with autism.
    We are seeing other schools in the area begin to integrate 
robotics and the utilization of robotics, the development of 
this technology into core curriculums in science and math--the 
STEM activities.
    It is a wonderfully exciting avenue for our students. I 
think it's so appropriate that we have this hearing that we 
look at this as a part of the Disrupter Series and not be 
fearful of it but engage what it is going to bring to 
productivity in the manufacturing marketplace, to our 
communities, to everyday tasks.
    I talked with a couple of my fast-food franchise owners 
about the utilization of robotics in mechanization in the fast-
food industry. Fascinating, the opportunities that it opens.
    It does mean that we have to put an emphasis on the 
education so that we have a workforce that is excited about 
working in this area.
    And Mr. Chairman, I will yield the time back to you or to 
whomever would like it.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back, and the Chair recognizes the 
subcommittee ranking member, Ms. Schakowsky, for 5 minutes for 
an opening statement, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    Today we are continuing our Disrupter Series with a hearing 
on advanced robotics. Robots are becoming increasingly 
sophisticated and at the same time robot technology is becoming 
cheap enough that people can actually bring robots into our 
homes, whether we are talking toys--that's been for a long 
time--but vacuum cleaners or other consumer products.
    The potential for robotics is really great, and I'm 
interested in how we can help develop that potential. In June, 
I met with four girls from Mount Prospect, Illinois, who were 
part of a robotics team through Girl Scouts. They were in DC 
for the Global Innovation Challenge sponsored by the U.S. 
Patent Office.
    If we want to continue in advanced technology then we 
certainly need to provide young girls and boys opportunities in 
science and technology.
    FIRST Robotics has been a leader in encouraging students to 
pursue robotics, and I look forward to hearing more about that 
organization's work and from Mr. Kamen.
    Some of the most innovative work in robotics comes out of 
our major research universities. For instance, Northwestern, 
which is in my hometown of Evanston, Illinois, has been 
collaborating with the Rehabilitation Institute of Chicago to 
research bio-inspired robotics.
    They look at how fish swim and how the human hand moves and 
how animals use their whiskers and then use it to build 
robotics that can really improve the lives of persons with 
disabilities.
    This research has tremendous promise, particularly for 
improving health care. Robotics also has significant 
implications for Federal policy. We need to invest in research 
and education that continues the technological progress that we 
see.
    And as Mr. Burnstein and Dr. Kota note in their written 
testimony, robotics has changed the nature of American 
manufacturing.
    We need to make sure that today's workers are prepared for 
this transition and that we are training today's workers for 
tomorrow's manufacturing jobs--or, really, today's 
manufacturing jobs.
    As robotics become more commonplace in daily life we have 
to consider the implication for consumer safety and privacy.
    Robots often collect and respond to information in their 
surroundings. How is that information used and how is it 
stored, who has access to that information, what does the 
consumer need to know, and when does the consumer provide 
consent?
    These are questions that designers and consumer watchdogs 
must grapple with, and the answer may not be the same for all 
technologies. Robotics also raises questions of ethics and 
responsibility.
    Let's say an accident occurs. This is a very real concern 
when we are talking about self-driving cars, for example. When 
does the fault rest with the manufacturer, when does it reside 
with the user?
    Dr. Jones mentions several of these issues in her written 
testimony, and I look forward to hearing more from her on ways 
our Government can respond to this technological innovation. 
Dr. Jones defines robots as technologies that sense, think, and 
act.
    Congress is not robotic, but I hope we will do the same 
thing in our subcommittee: Take the information, process that 
information, and then take action based on what we've learned.
    I look forward to hearing from our witnesses and to working 
with my colleagues to ensure that Federal policy keeps pace 
with technological change. And I thank you, Mr. Chairman, and 
yes, I will yield to my colleague, Mr. Kennedy.
    Mr. Kennedy. I thank my colleague, Ms. Schakowsky.
    I want to thank the chairman for calling this hearing and 
for continuing this series. Really interested in that prospect 
of and the testimony from our experts today.
    Clearly, the opportunities for innovation around advanced 
robotics are almost limitless, and so I think, from my 
perspective, anyway, trying to understand how Congress can 
continue to support that innovation and support that progress 
is critical.
    It does potentially bring up some interesting ethical 
questions and profound questions about the economic impact and 
questions about data and privacy and, potentially, jobs and the 
economy as well.
    And Dr. Jones, you touched on that in your written 
testimony. So I'd like to start to explore just the broad base 
of those concepts and any guidance that you all might be 
willing to lend to us as innovations in this field continue to 
unfold at a pace that actually far exceeds, I think, that of 
experts even a couple months or years ago.
    We are making tremendous progress in fields of advanced 
robotics, artificial intelligence, and others and what does 
that really mean, given the fact that we are moving more 
quickly than people even expected?
    So with that, I yield back and I thank the chairman.
    Mr. Burgess. Chair thanks the gentleman. Gentleman yields 
back.
    Chair recognizes the chairman of the full committee, Mr. 
Upton, 5 minutes for an opening statement, please.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    So today our Disrupter Series turns to advanced robotics, 
for what I know will be an interesting and thoughtful 
discussion. I'm particularly excited to welcome my good friend, 
Dean Kamen, back to the committee. He has appeared a good 
number of times, adding his valuable insight to our 21st 
Century Cures effort, and, for those who don't know, he's often 
referred to as the Dean of Invention and has been at the 
forefront of disruptive technologies his entire career.
    His decades of leadership and imagination have undoubtedly 
changed the face of advanced robotics from the invention of the 
Segway and iBOT electric chair to the drug infusion pump and so 
many others. His inventions and entrepreneurial spirit have led 
to the growth of the FIRST competition. FIRST, of course, 
stands for For Inspiration and Recognition of Science and 
Technology. His passion for innovation inspires kids from 
kindergarten to high school and encourages them to get involved 
in engineering and other STEM fields.
    The program has grown from 20 teams to over 45,000 teams 
nationwide since it was founded in '89. I've got a great 
relationship with FIRST Robotics--very proud supporter.
    My home State of Michigan is becoming Robot Central, with 
by far the highest number of FIRST teams per capita in the 
country.
    To describe what this competition is like, FIRST teams 
receive a box with 120 pounds of components. They've got six 
weeks to design and build a functioning robot, and what they 
come up with in those six weeks is nothing short of amazing.
    I've been to a number of competitions across the State, and 
I was impressed with what the kids are coming up with. It's 
inspiring. I want to stay there all day.
    From the St. Joe Average Joes--this team--to the 2767 
Stryke Force team in Kalamazoo, innovative STEM programs like 
FIRST allows for kids in our communities to dream big and 
inspire to become inventors, engineers, small business owners, 
community leaders. It's also refreshing to see kids excited by 
science, and I would note that Dean was treated like he was 
Bruce Springsteen walking into St. Joe High School, a rock 
star, for sure.
    I'm also proud to co-sponsor bipartisan legislation with my 
colleague, Debbie Dingell, that would use the sale of 
commemorative coins for astronaut Christa McAuliffe, who was, 
of course, tragically lost in the Challenger disaster, to raise 
money for FIRST around the country, and I look forward to 
hearing even more from Dean and all of our witnesses about 
their recent efforts, whether it be FIRST, how Government had 
gotten involved with the program, and I also note that the 
Robotics Industries Association is headquartered in Ann Arbor--
go, Blue.
    Dr. Kota, among his many projects is a professor at the 
University of Michigan. Understanding how industry approaches 
advances in robotic technology, whether in capital investments 
or new partnership opportunities, is so critical to 
understanding how we move disruptive inventions from the lab 
into commerce to create jobs and economic growth here at home 
and a better quality of life for all.
    I thank Chairman Burgess for continuing the series.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today our Disrupter Series turns to advanced robotics for 
what I am sure will be an interesting and thoughtful 
discussion. I am particularly excited to welcome my friend Dean 
Kamen back to the committee. He has appeared a number of times, 
adding his valuable insight to our 21st Century Cures effort. 
For those who don't know, he's often referred to as the ``Dean 
of Invention'' and has been at the forefront of disruptive 
technologies his entire career. His decades of leadership and 
imagination have undoubtedly changed the face of advanced 
robotics. From the invention of the Segway and the iBot 
electric wheelchair to the drug infusion pump.
    His inventions and entrepreneurial spirit have led to the 
growth of the FIRST competition. FIRST stands for ``For 
Inspiration and Recognition of Science and Technology.'' His 
passion for innovation inspires students from kindergarten to 
high school and encourages them to get involved in engineering 
and other STEM fields. The program has grown from 20 teams to 
over 45,000 teams nationwide since it was founded in 1989.
    I have a personal relationship with FIRST Robotics and am a 
very proud supporter. My home State of Michigan is becoming 
``Robot Central'' with, by far, the highest number of FIRST 
teams per capita in the Nation. To describe what this 
competition is like: FIRST teams receive a box with 120 pounds 
of components and have six weeks to design and build a 
functioning robot. What they come up with in those six weeks is 
nothing short of amazing. I've been to numerous competitions 
across the State, and I'm always impressed with what the kids 
come up with. It's inspiring, it really is.
    From the St. Joseph ``Average Joes'' team to the ``2767 
Stryke Force'' team in Kalamazoo, innovative STEM programs--
like FIRST Robotics--allows for kids in our communities to 
dream big and aspire to become inventors, engineers, small 
business owners, and community leaders. It is also refreshing 
to see kids excited by science, and I would note Dean was 
greeted like one of the Beatles when he visited St. Joseph High 
School back in my hometown.
    I'm also proud to co-sponsor bipartisan legislation with my 
colleague Debbie Dingell that would use the sale of a 
commemorative coin for astronaut Christa McAuliffe, who was 
tragically lost in the Challenger disaster, to raise money for 
FIRST programs around the country.
    I look forward to hearing even more from Mr. Kamen and all 
our witnesses about his recent efforts with the FIRST 
competition and how industry and the Government have grown 
involved with this program. I would also note that the Robotic 
Industries Association is headquartered in Ann Arbor and Dr. 
Kota, among his many projects, is a professor at the University 
of Michigan.
    Understanding how industry approaches advancements in 
robotic technology, whether in capital investments or new 
partnership opportunities, is critical to understanding how we 
move disruptive inventions from the lab into commerce to create 
jobs and economic growth here at home.
    I thank Chairman Burgess for continuing the Disrupter 
Series and highlighting the positive impact that emerging 
technologies, like advanced robotics, are having on our 
economy.

    Mr. Upton. I yield the balance of my time to my friend from 
Mississippi, Dr. Harper.
    Mr. Harper. Thanks for the high degree. So just no doctor--
well, Doctor of Jurisprudence. Does that count?
    Mr. Upton. Yes, it does.
    Mr. Harper. OK. Thanks. Thank you, Mr. Chairman, for 
calling this hearing today, and I'm excited to continue this 
subcommittee's work on the Disrupter Series and looking forward 
to our discussion on advanced robotics.
    In my district, Mississippi State University is actively 
conducting research and making advances through a number of 
projects in the robotics arena, including a National Science 
Foundation award to develop the Therabot, a therapeutic robotic 
support system in the form of a beagle dog that is responsive 
to touch through multiple sensors.
    The Therabot will be used for therapy sessions with the 
clinician as well as for home therapy exercises, especially for 
individuals with post-traumatic stress disorder. Another 
project that's been funded in the past by Army Research 
Laboratories focuses on improving the integration of robots 
into law enforcement SWAT teams to develop new tactics and 
investigates how robots can be used more effectively in a real-
world scenario to increase safety and information-gathering 
capabilities.
    And those are just two of the many projects that are going 
on at Mississippi State. Additionally, at Mississippi State 
University they work with a number of organizations, including 
4-H, to put together opportunities and competitions for 
students of all ages to learn about robotics and have some fun 
along the way.
    With that said, I would like to welcome all the witnesses 
here today, in particular Mr. Kamen. It is good to hear from 
you and to have you be here and to explain these things to us 
and know how clearly committed you are to teaching children 
around the country technology skills that will prepare them for 
a bright future.
    With that, I yield back.
    Mr. Burgess. Gentleman yields back. The Chair thanks the 
gentleman.
    Seeing no other Members seeking an opening statement, we 
will conclude with Member opening statements. The Chair would 
like to remind Members that pursuant to committee rules, all 
Members' opening statements will be made part of the record.
    And we do want to thank all of our witnesses for being with 
us here today, taking the time to prepare and to testify to the 
subcommittee.
    Today's witnesses will have the opportunity to give an 
opening statement followed, of course, by questions from the 
Members. Our panel for today's hearing will include Mr. Dean 
Kamen, founder of DEKA Research; Dr. Sridhar Kota, Herrick 
Professor of Engineering at the University of Michigan; Dr. Meg 
Jones, assistant professor of Communication, Culture and 
Technology at Georgetown University; and Mr. Jeff Burnstein, 
president at Robotics Industries Association.
    We appreciate you all being here today, and we will begin 
the panel with you, Mr. Kamen, and you are recognized for 5 
minutes for an opening statement, please.

STATEMENTS OF DEAN KAMEN, FOUNDER, DEKA RESEARCH; SRIDHAR KOTA, 
    PH.D., HERRICK PROFESSOR OF ENGINEERING, UNIVERSITY OF 
     MICHIGAN; MEG LETA JONES, PH.D., ASSISTANT PROFESSOR, 
COMMUNICATION, CULTURE, AND TECHNOLOGY, GEORGETOWN UNIVERSITY; 
 AND JEFF BURNSTEIN, PRESIDENT, ROBOTICS INDUSTRIES ASSOCIATION

                    STATEMENT OF DEAN KAMEN

    Mr. Kamen. Thank you. So I was told I have only a few 
minutes, and I decided, since a picture is worth a thousand 
words and a video is worth a thousand pictures, I took two 
videos. Trust me, they are each under 2 minutes long. One is 
sort of a general overview of FIRST, and it ties everybody 
together because it's the voice of God. It's Morgan Freeman 
from Mississippi, who, after coming, agreed to help us with the 
video because people trust the voice of God, and also said he 
will help us put FIRST in every school in Mississippi.
    So we need to talk. We work with, of course, in Chicago 
RIC. My day job is medical stuff and robotics, and we built the 
arms that they are using for their optic stuff there and, of 
course, we work with Texas in many ways, Massachusetts.
    You heard about how tired we are. But I'm going to show two 
videos. One is an overview of why robotics are going to be so 
valuable to the next generation and to this country in 
preparing to be competitive in the world.
    The second one is a minute long, and it's not the voice of 
God. It's a 7-year-old girl that helped prepare a video for the 
international version of FIRST because we are seeing, for 
instance, incredible growth in 86 countries.
    So another reason that you need to get serious about giving 
kids the skills they get through robotics is it's--and you'll 
see in that second video, ``it's not robots, it's not 
robots''--it's all the skill sets for the 21st century, and I 
hope you listen to the 7-year-old. Let's hear from the voice of 
God.
    [Video is played.]
    So there's the voice of God. Now we go to a 7-year-old 
who's going to shake up the world with FIRST.
    [Video is played.]
    Mr. Upton. Mr. Chairman, if I might just ask that--Dean, if 
we can--is it OK if we put that on the committee's Web site?
    Mr. Kamen. I would be proud to have you put it there.
    Mr. Upton. It's there. All right. Thank you.
    [The prepared statement of Mr. Kamen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. Burgess. Thank you, Chairman. Dr. Kota, you're 
recognized for 5 minutes for your opening statement, please.

                   STATEMENT OF SRIDHAR KOTA

    Dr. Kota. Chairman Burgess, Ranking Member Schakowsky, 
distinguished subcommittee members, thank you for the 
opportunity to appear before you today to discuss issues of 
critical importance to American economic competitiveness--
robotics, artificial intelligence, and manufacturing.
    My name is Sridhar Kota. I'm the Herrick Professor of 
Engineering at the University of Michigan and also the director 
for a new think tank called MForesight, the Alliance for 
Manufacturing Foresight.
    MForesight works to bring together Government, industry, 
and research institutions to scan the horizon for emerging 
trends and promising opportunities for American manufacturing.
    We help to build public-private partnerships related to 
manufacturing innovation. We respond to long-range technical 
questions from Government and industry and we work to identify 
best practices for training the next-generation workforce.
    Our ultimate aim is to enable the United States to gain a 
long-term edge in economic competitiveness by strengthening 
domestic manufacturing.
    Thirty years ago when I was a graduate student in 
mechanical engineering, robotics was already a topic on 
everybody's mind, but back then the dominant vision of robotics 
was of machines replacing human labor, taking over 
manufacturing tasks like welding and painting.
    Today, researchers and firms tend to think of robots in a 
different light as collaborative tools to enhance productivity 
of factory workers, as a means to assist soldiers on dangerous 
missions, as co-drivers to enhance automobile safety and 
efficiency, and as co-inspectors to enable continuous 
monitoring and maintenance of high-value assets, such as 
bridges and wind turbines.
    As artificial intelligence matures, there is promise that 
intelligent machines can augment certain types of human 
decisionmaking in fields ranging from medicine to 
manufacturing.
    In short, robotics is now about augmenting and improving 
human work rather than replacing it. While robotics and AI 
innovations hold incredible promise, it's an open question 
whether the resulting technology products will be manufactured 
in the United States.
    Despite Federal annual investment of over $140 billion in 
science and technology, America's trade deficits in advanced 
technology products moved from a surplus in 2001 to a deficit 
of over $90 billion in 2015.
    To strengthen America's competitiveness in the age of 
advanced robotics and AI, we need to build the knowledge, 
skills, and infrastructure to anchor production here. Put 
concisely, we need to be thinking about translational research 
and workforce training.
    I would first like to discuss translational research: how 
Government and industry can ensure that existing investments in 
basic research turn into useful new products, including robots 
and AI technologies, that create wealth for Americans and 
advance our national interests.
    What I believe we need right now is a whole-of-Government 
approach that leverages the strength and missions of different 
Federal science and technology agencies to help ensure that we 
can translate promising discoveries and inventions into 
successful manufactured products.
    This need not be costly. A national innovation foundation 
could be created by consolidating relevant offices at a dozen 
or more existing agencies.
    Such an entity could be tasked with identifying the most 
promising basic research being undertaken across the Government 
and building public-private partnerships to invest in 
transforming that research into American-made products. The 
idea would be to maximize the return on taxpayers' investments 
in R and D.
    The second policy matter I would like to discuss is 
education workforce training: how Federal, State, and local 
governments, working with employers, can ensure that Americans 
have the requisite knowledge and skills to build great products 
in the age of advanced robotics and AI.
    In spite of our manufacturing losses in recent decades, 
there are now a large number of open positions in manufacturing 
and about 415,000 unfilled manufacturing jobs in the United 
States, according to the Society of Manufacturing Engineers.
    I believe the biggest long-term risk to U.S. manufacturing 
isn't foreign competition. It's too little awareness and 
interest in engineering and manufacturing careers starting at 
an early age.
    While high schools commonly require students to dissect a 
frog, few require students to disassemble a power tool, let 
alone a robot. This needs to change.
    Primarily, the programs like FIRST Robotics--we all just 
saw those wonderful videos--it's an innovative program that 
challenges students to work together to build game-playing 
robots in an atmosphere of professionalism, and it is the 
roadmap to engineering.
    It is the roadmap to innovation, and right now it's 
currently done as an after-hour, after-school extracurricular 
activity.
    This is the kind of program that we need to bring into the 
mainstream in order to mainstream curricula in K through 12, 
and that's the only way we can build a foundation for that next 
generation of innovation in the advanced manufacturing 
community.
    So through smart research investments and sustained focus 
on education and training programs like FIRST Robotics, we can 
help ensure that these innovations truly improve American lives 
and livelihoods.
    Thank you.
    [The prepared statement of Dr. Kota follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Mr. Burgess. Chair thanks the gentleman.
    The Chair recognizes Dr. Jones, 5 minutes for your opening 
statement, please.

                  STATEMENT OF MEG LETA JONES

    Dr. Jones. Chairman Burgess, Ranking Member Schakowsky, and 
distinguished members of the subcommittee, thank you very much 
for putting on this Disrupter Series and for inviting me to 
testify before you today.
    With all of the excitement that comes with these ingenious 
advancements in robotics are ethical, policy, and legal 
questions.
    Robot ethics and robotics policy conjure problems like how 
we avoid creating our mechanical overlords and when AI should 
have rights. These are questions for the future.
    But what I'm going to talk about today is a really, really 
simple problem, and that is that robots don't have screens, and 
this is incredibly disruptive to privacy protection in the 
United States.
    For the last 50 years, screens have been how we interacted 
with our information and communication technologies.
    You engage with the cloud or a colleague or a retailer 
through the interface on your desktop, your laptop and then 
your smart phone and your tablet, and then for the last 20 
years the Internet age has used that screen to create, collect, 
process, trade, and use your data, and it's through that same 
screen that you can figure out how your data is collected and 
used. You go to the bottom of the page and you click on the 
blue link that says privacy policy.
    And this is the notice and choice regime that information 
exchange around the world had been built upon and the idea, of 
course, is that the data controller notifies you what they are 
going to do with your data, and you can choose to engage with 
the system or not.
    There are, of course, problems with relying on this form of 
consent in the information age. People can't dedicate all of 
the time it would take to read all of those policies. Even if 
they could, they can't necessarily understand them, and even if 
they could read and understand them they wouldn't necessarily 
be able to assess the future uses and harms of their 
information.
    Participating in one's data is increasingly difficult as 
screens get smaller, and we have seen this with smart phones 
and wearables already. But robots often don't have any screen 
at all.
    Some robots are categorized within the Internet of things, 
and, as you are aware from previous hearings, the Internet of 
things is a catch-all for the movement to connect everyday 
objects to make them smart using sensors, wi-fi, and the cloud.
    Like most technologies in the Internet of things, there is 
no screen, so if you want to know the terms of use for the 
privacy policy you can't scroll down on anything.
    So how does one figure out what information is being 
collected and used, and why?
    There was a 2015 Federal Trade Commission report on this 
subject, and they suggested using video tutorials, setup 
wizards, and privacy dashboards.
    Treating the Internet of things like an extension of the 
Internet, these are tools that provide notice and participation 
for the good old days of personal computers and apps.
    At Georgetown, we bought a bunch of Hello Barbies to figure 
out how we would know what she was collecting about us and what 
she did with the information just by interacting with her.
    Now, to set up Hello Barbie, you have to click a bunch of 
accept buttons, like most things, but we really wanted to know 
what she would tell us.
    So we asked her a number of times if she could keep a 
secret, or we would tell her something and then we would say, 
You're not going to share that with anyone, are you? And she 
couldn't really process the questions that we were asking her.
    But when you asked her about her privacy policy, she said 
that an adult could find details about privacy on Page 2 of the 
booklet that came in the box.
    So this is essentially the same problems that exist with 
relying on notice and choice in the Internet age, except you 
have the extra step that you have to go find this booklet or 
the box.
    More importantly, what if it's not your Barbie? We are 
moving beyond the days of personal computers with smart 
objects, smart people, and smart environments.
    When you get into someone else's driverless car or you see 
a drone flying overhead or you walk into someone else's smart 
office, what information is being collected?
    How would you know? Whose drone is that? What company makes 
it? Do they collect information? Do they map your face for 
facial recognition? Where is the booklet that came in the box?
    And even if you did know the answer to those questions, 
what can you really do about it? Notice and choice, even beyond 
the practical problems, breaks down at a theoretical level in 
what I call the Internet of other people's things, of which 
many robots will be a part.
    So I know some people think that privacy is dead, and in my 
written testimony I noted a few statistics. But one of them is 
that, in January 2016, more American adults were worried about 
their privacy than losing their main source of income.
    So people care, and I think that if we want to usher in the 
type of advanced robotics that we want, we have to start by 
innovating some of our policy approaches, including privacy.
    Thank you.
    [The prepared statement of Dr. Jones follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Mr. Burgess. Chair thanks the gentlelady.
    Mr. Burnstein, you are recognized for 5 minutes for your 
opening statement, please.

                  STATEMENT OF JEFF BURNSTEIN

    Mr. Burnstein. Thank you, Chairman Burgess, Chairman Upton, 
and Ranking Member Schakowsky and members of the subcommittee.
    I want to really thank you for having the Robotics 
Industries Association here to participate in this series. RIA 
has been around since 1974, and we are based in Ann Arbor, 
Michigan--go, Blue--and what's interesting about RIA is that it 
represents 400 companies that are driving innovation, growth, 
and better, safer and higher-paying jobs in manufacturing 
service industries.
    Now, I have been there for over 30 years, and I have to 
tell you this is the most exciting period for robotics and 
American innovation in robotics in the entire time I've been 
there.
    We think that the key to staying competitive in 
manufacturing, in particular, is to implement advanced 
robotics. We see what's happening around the world. RIA is in 
China, we are in Korea, we are in Japan.
    We see the efforts that are going on there and in Europe, 
and we think we have an opportunity here to create more jobs 
and to save jobs that are already here.
    I'd like to, if you don't mind, highlight some of our 
member companies and the innovations they are working on. In 
the Boston area, Rethink Robotics is developing collaborative 
robots.
    These are a new kind of robots that work side by side with 
people, that don't require safety fences between them. Or Soft 
Robotics, also in Boston, who's taken on a challenge that's 
kind of plagued the industry for many years of how to grip 
different parts.
    So you have very fragile things that have to be picked up 
by a robot, like produce or vegetables and tomatoes, peaches--
all the things that agriculture cares about. You have these 
hard parts--rugged, on assembly lines. You used to have to 
change the gripper, the hand on the robot. But now, thanks to 
companies like Soft Robotics, you might be able to do it with 
just one gripper.
    Aethon in Pittsburgh, Pennsylvania, creating an autonomous 
robot that delivers and tracks medical supplies in hospitals, 
allowing the staff to focus more time on patient care, which is 
really what we want.
    And how does this all play out at user companies? When, 
there is a company we work closely with called Vickers 
Engineering in New Troy, Michigan, a precision machining 
company that provides solutions to automotive, oil and gas, 
agriculture, defense, and industrial markets.
    They had trouble keeping people in dull, repetitive, and 
dangerous jobs. They had to keep hiring and retraining. It was 
hurting productivity. They said, Why don't we take a shot at 
robotics? And they did. Their business tripled, bought more 
robots and at the same time they increased their head count, 
and we are seeing this across the country with small and 
medium-sized companies as well as large ones.
    One thing the U.S. is fortunate to have is the greatest 
group of system integrators in the world. Now who are these 
companies?
    These are folks that put together the systems that actually 
make the robots work on the factory floor that integrate with 
the other machines and equipment and tie into the Internet of 
things.
    Companies like Genesis Systems in Davenport, Iowa, and 
Matrix Design in South Elgin, Illinois, Schneider Packaging 
Equipment in Bremerton, New York, Tennessee Rand from 
Chattanooga, Tennessee. These are just a few of the certified 
robotic integrators that RIA would like to acknowledge.
    Today's robots offer U.S. manufacturers improvements in 
efficiency that are driving profits and employment, as we said. 
We issued a white paper on this called ``Robots Fuel the Next 
Wave of Productivity in Job Growth.''
    You may read otherwise, that robots are job killers, but 
our data doesn't support that. What we see is that whenever 
robot sales rise, unemployment falls. And when the opposite 
happens--when robot sales fall--unemployment rises. You don't 
hear that in the media too often.
    We understand the importance of education, STEM education, 
and training and retraining to make sure that we've prepared 
our workforce for the future jobs and for the present jobs.
    There are groups like RAMTEC in Marion, Ohio, a Government- 
and industry-supported collaboration that provides training to 
high school and college students along with incumbent workers 
to support industry's needs for training in robotics and 
automation equipment.
    And we hope that programs like this will proliferate 
because by working together industry, Government, academia can 
help make sure that our workers are prepared for the future.
    I personally appreciate this opportunity to highlight the 
important role that robotics is playing in advancing our 
economy in creating not only safer, better, and higher-paying 
jobs but also improving society and our health and our 
livelihood and our long-term ability to be productive members 
of society.
    I hope that those of you who aren't involved will join the 
House Robotics Caucus with Congressman Rob Woodall and 
Congressman Mike Doyle, and we value their work and look 
forward to continuing the dialogue on advanced robotics.
    Thank you very much.
    [The prepared statement of Mr. Burnstein follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Mr. Burgess. The Chair thanks the gentleman, and the Chair 
would note that Mr. Doyle is a member of the full committee of 
Energy and Commerce.
    So I thank you all for your testimony, and we'll move now 
into the question and answer part of the hearing.
    Mr. Burnstein, let me just ask you, because in your written 
testimony you referenced using robotics to do jobs that perhaps 
would be inherently too dangerous for a person to do--a hazmat 
situation.
    We're all familiar with the bomb-disabling robots that 
several of our police departments used in Dallas, Texas, this 
July--July 7th. So kind of a unique situation where there was a 
shooter who had killed several Dallas police officers and an 
officer with the Dallas Area Rapid Transit, and the individual 
was contained in a garage but could not be controlled, and 
ultimately Chief Brown made what I consider a very courageous, 
a kind of unique, decision to use the bomb-disabling robot to 
actually deliver a bomb to this individual and end the problem.
    I am sure, from your association, are you aware of that 
instance?
    Mr. Burnstein. Yes, I am.
    Mr. Burgess. Are there thoughts that the association has on 
the use of the robot in that situation? Again, I think Chief 
Brown was courageous, and I am grateful that he made the 
decision. I'm grateful he prevented any further loss of life. 
But, obviously, it poses some new questions.
    Mr. Burnstein. It does pose new questions and, I think, 
ideally, robots wouldn't be involved in harming people. It's 
one of the first laws of robotics that Isaac Asimov laid out.
    However, in this particular case, if you take the word 
robot out of the equation, we sent in equipment that would save 
police officers' lives. And so whether it was a robot or some 
other way to get that in there, if we could have got a person 
in there we would have taken that shooter out in that way.
    So, in my opinion, that was the right choice and it was a 
good use of the technology because it was saving police 
officers' lives.
    Mr. Burgess. Very good, and I appreciate your answer.
    So, Dean Kamen, earlier this week the One Hundred Year 
Study on Artificial Intelligence released a report titled 
``Artificial Intelligence and Life in 2030.''
    So the good news: The panel found that there is no cause 
for concern that artificial intelligence is an imminent threat 
to humankind or the United States Congress. Actually, I just 
added that.
    In fact, the findings of the group of academics from the 
University of Texas at Austin, MIT, Harvard, and others 
concluded that increasingly useful applications of artificial 
intelligence with potentially profound positive impacts on 
society and the economy were likely to emerge between now and 
2030.
    So, simply, do you agree with their assessment? You spend a 
lot of time in this space.
    Mr. Kamen. Well, I think that the whole term artificial 
intelligence, or for that matter robotics, means different 
things to people, let's say, within that industry and to the 
public.
    I would almost define robotics as seen by the public as any 
piece of technology that wasn't around when you were a kid 
because the fact is we've been robotically doing more and more 
and more since the industrial revolution started, and before 
that, you know, knitting machines made things robotic, and 
artificial intelligence, a machine that is programmed to do a 
function--the calculator you have was considered, you know, a 
mathematician 30 or 40 or 50 years ago.
    I think we should always be concerned, as you heard from 
Dr. Jones about unintended consequences, of applying technology 
to anything, but artificial intelligence, like most good tools, 
will just support the real stuff, and we could all use a little 
more of the real intelligence.
    And I think as long as humans with good judgment and good 
ethics are deploying these tools for the betterment of the 
world, we are OK. It would be naive to assume that you can 
never do damage with it.
    But, again, the first tool--the rock--could help you build 
a house or break your thumb. That first use of fire could make 
us have a life and could burn down your house. Every new 
technology bears the potential to be misused.
    But putting your head in the sand is just going to allow 
somebody else to dominate that technology, and I'd rather be 
the ones that decide how to develop it and how to use it.
    Mr. Burgess. Thank you. You know, my background is in 
health care. I think some of your work has been in the 
healthcare space and, of course, we are all familiar now with 
robotics in the operating room. Could you speak to that just a 
little bit, what the future might hold for us?
    Mr. Kamen. So you mentioned in your opening remarks Rosie, 
and I think, again, the word robot, coming originally from the 
world of science fiction, always displays the robot as this 
anthropomorphic thing,
    I think of all the things that robots will evolve to, the 
least likely is that, because we are pretty good at being what 
we are.
    We like being what we are, and we are not going spend a lot 
of time and money making something else to do what we are and 
what we like to do. You're not going to build a robot to take 
your trip to Disney.
    I think robots will be used like other technologies that 
are developed, to augment, as you heard from Dr. Kota, what we 
do. There will be robots much bigger than us, like bulldozers. 
We don't like digging ditches. There will be robots much 
smaller than us, ones that will travel through your vascular 
system, go in there and tweak that heart valve so you don't 
need to have it removed or replaced.
    Robots will get very small. Robots will get very big. 
Robots will not look like humans. But in the healthcare field, 
they will change so dramatically the process of taking care of 
people that a doctor 50 years from today will not recognize, 
and certainly a hospital will not look like it looks today.
    Nanotechnology, proteomics, genomics, the ability to use 
robotic technology to get to critical places without destroying 
vital tissue, it's going to change virtually every concept 
we've had in medicine more than you've seen medicine change so 
far in your lifetime.
    Mr. Burgess. And it has changed a lot, even in my short 
lifetime.
    Chair thanks the gentleman for his answers. The Chair 
recognizes Ms. Schakowsky, 5 minutes for your questions, 
please.
    Ms. Schakowsky. Thank you, all of you. It's been a 
fascinating panel and really excellent testimony.
    I wanted to ask you, Dr. Jones, a couple of questions. In 
all our exuberance, I'm happy that you raised some issues that 
we, you know, also need to pay attention to: privacy and data 
security.
    Robots, almost by definition, collect a vast amount of 
information because they need to sense the environment they are 
in and process the information and take action based on that 
information. And as you pointed out in your testimony, many 
robots are or will be Internet connected.
    And at the subcommittee's hearing on wearable devices, we 
heard about notice and choice like those you mentioned earlier. 
We generally rely on screens to provide the interface that 
allows for notice and choice, but, as with wearables, robots 
generally don't have those screens.
    So let me also say for household robots that are already on 
the market, let me ask you, What is the mechanism used to 
provide notice to consumers and, is it always a question of the 
privacy policies are just included in the box, you better take 
them out and save them?
    Dr. Jones. Yes, for the most part. When you buy a device 
for your home, you're still at least within the Internet of 
things, not other people's things.
    And so when you put a nest system, for instance, in your 
home, you click a number of boxes and you can find out more 
information about what's collected. And sometimes you have to, 
just to set the thing up. And so there is sometimes increased 
amount of notice in the Internet of things.
    However, if you walk into someone else's house that has, 
say, a personal assistant robot that wires the home and does 
voice recognition or facial recognition, you don't have a way 
to express to that system, hey, I don't like that, don't do 
that to me, I don't want you to map my face and store it 
somewhere. And I think that that is really the next hurdle, and 
it's a wonderful interdisciplinary problem.
    It requires a lot of technical considerations as well as 
policy and ethical considerations. I don't think that it's 
necessarily a regulatory change.
    That being said, I do think that reliance on notice and 
choice will have to take a secondary seat to something.
    Ms. Schakowsky. You know, at one of these hearings I 
brought a privacy policy that was included in the box and kind 
of unfurled it. It was very long. It was very legalistic. Very 
small print. Challenging.
    But you also mentioned that, online, how many people--let's 
be honest--read all the words before they push ``agree,'' 
because you know that you're not going to get in unless you 
agree.
    And so, you know, I think these are challenges that we need 
to figure out. But let me ask you this--you mentioned a study 
by the Pew Research Center that found that a vast majority of 
adults felt it was important to have control over what 
information was collected about them and who could get that 
information.
    And do you agree that most consumers would prefer a more 
customizable approach?
    Dr. Jones. So this, I don't know, there are a lot of 
surveys on privacy, and I think that they are not tailored to 
regulatory answers a lot of the time.
    So you'll hear people say they really care about privacy. 
But it's not clear whether they want a set standard like the 
European version of privacy or they want an adjusted type of 
notice and choice, a more sort of libertarian privacy 
integrated into the way they engage with ICTs.
    So I can't say for sure. I think that Americans probably 
don't care. They just want privacy.
    Ms. Schakowsky. OK. When legislators discuss privacy and 
data security issues, some have argued that we should only be 
concerned about a narrow set of data of personal information, 
specifically personal financial information.
    However, consumers have more than financial concerns, and 
I'm just wondering if you could discuss the privacy concerns 
that robots have beyond the financial, and how do we broaden 
the discussion to ensure we understand the emerging 
technologies and the privacy concerns that come with those new 
technologies?
    Dr. Jones. So, for anyone who cares about their physical 
safety, a robot could easily be something to be concerned about 
because, if a robot registers that you're near them, for 
instance, someone could know where you're at.
    We have seen a number of apps that have shown the location 
of women, for instance, that have been not held positively by 
Congress or the public at large, but physical location data is 
one thing.
    The idea that you can figure out a lot of things about 
someone that they don't want you to know by putting together a 
few pieces of information, we know that that is also true. So 
right now we have a ton of little pieces of information that 
gets put together that can show basically your route to work, 
where you work, what you do, where you go to lunch, who you go 
to lunch with, and by putting sensors in the environment, you 
just increase that dossier on every individual that's moving 
through those spaces.
    And what's interesting about robotics is they are not just 
in public spaces. They're in private spaces. They're in semi-
private spaces. And so you can link these together in really 
troubling ways.
    Ms. Schakowsky. Thank you very much.
    I yield back.
    Mr. Burgess. Chair thanks the gentlelady. Gentlelady yields 
back. The Chair recognizes the gentlelady from Indiana, Ms. 
Brooks, 5 minutes for questions, please.
    Ms. Brooks. Thank you, Mr. Chairman.
    I've always really enjoyed the Disrupter Series and pleased 
to be here to talk about robotics today.
    Fortunately, our former mayor of Indianapolis, Mayor Greg 
Ballard, had the foresight in 2012 to start Indiana State 
Robotics Initiative to help build that skilled workforce in the 
pipeline of students, and it is that cross-sector partnership 
between Government, corporate, and nonprofit organizations to 
make robotics accessible to all Indiana students.
    And I might say, Mr. Kamen, I have visited the Carmel 
TechHOUNDS. Carmel High School has a FIRST robotics team that's 
been competing for quite some time. And now, actually, in 
January, over 160 teams competed in the Indianapolis VEX 
Robotics Competition.
    But throughout Indiana, over 40,000 students are being 
exposed to robotics and, hopefully, will continue that interest 
into the future because I do believe that we need to start this 
exposure very young.
    What I am very curious about, Mr. Kamen, is based on all of 
your experience, what is the one thing you would like us to 
walk away from in this hearing with respect to how we continue 
the growth of the FIRST program and of robotics in this 
country? What is one thing you'd like for us to remember?
    Mr. Kamen. So when I was first asked to come, I thought it 
would be, hey, let's celebrate, figure out how to grow the 
robotics program because we know it works, and I was told, 
Dean, that would be optimistic, you should know that part of 
this hearing is going to be to deal with real concerns--by the 
way, some real concerns--but other concerns that some people 
have that, you know, robots will take jobs. You heard what Mr. 
Burnstein said and I said. It's hard for me to believe that in 
the 21st century people will think that advanced technologies 
are going to do anything except grow this opportunity.
    In that regard, I took a slide. I visited Beijing with the 
president of the U.S. National Academy of Engineers and our 
chairman for the first-ever coalition meeting of the Royal 
Society in London, the National Academy, and the Chinese 
Academy of Engineers, which by the way is way larger than ours.
    We get to Beijing to talk about the grand challenges, but 
I'm whisked away by somebody who takes me to a local school in 
Beijing. By the way, China, he tells me, has 4,000 FIRST teams.
    They use FIRST because it inspires kids to get of the ``we 
are good at learning engineering, but now we learn how to be 
innovators like you Americans.''
    And he takes me in there and he shows me this picture on 
the wall of the president of China. Could you put that slide 
up? And I asked him, ``Will you please tell me why there is a 
picture of the president of China in this school where I was 
looking at a FIRST field in Beijing?'' And he translated it for 
me and said, ``Robotics will become an entry point, an impetus 
for growth of the Third Industrial Revolution.''
    What I want you all to go away understanding is, if America 
wants to remain a leader in the world economically, in every 
other way--our security, our economy--it's going to depend on 
us remaining leaders in the technologies that result from 
learning how to design and build the next generation of 
technology, which we generally all call robots now because it's 
actuators, it's sensors--it's the collection of everything that 
will allow humans to keep moving.
    And if anybody thinks that that's not the case, you're 
going to be a drag on the future of this country. That's what I 
think. We need to focus on giving kids the tool sets for the 
next century, and robotics is a great vehicle to do it.
    Ms. Brooks. Thank you.
    Dr. Kota, what would you say are the most significant 
barriers to investment in advanced robotics? What are the 
challenges that you are seeing?
    Dr. Kota. Barriers to investment in advanced robotics, you 
know, we have this national robotics initiative, and actually 
there is a new solicitation out for a manufacturing innovation 
institute in robotics, which is all very positive, and I think 
we should continue to work along the lines of creating next-
generation robotics collaborating with humans.
    But I don't see any--more than that, I think the biggest 
barrier--I want to pick up on what Dean Kamen said--the biggest 
challenge and the biggest opportunity we have right now is 
really the robots. It is a gateway to engineering.
    It is a gateway to designing and building things, and this 
is the way where we can really get kids excited about going 
into engineering fields and manufacturing, because that's what 
it takes to convert an idea into product.
    Ms. Brooks. I agree. But are there barriers that are 
causing us, that are stopping our--you know, what are the 
barriers?
    Dr. Kota. Well, are you talking research, or actually 
educational workforce development?
    Ms. Brooks. Yes.
    Dr. Kota. OK. The workforce development side, the barrier 
is--OK, the question, I'll turn it around and say we have right 
now this program is an after-school extracurricular program.
    Those kids were already motivated and doing incredible 
things. We should expose them to every kid in school, and just 
like we ask every student to dissect a frog, just about, why 
not ask them to work on these FIRST robotics?
    Now, the barrier could potentially be, more than the 
funding, is actually the requirements for schools to check 
certain boxes to meet the curriculum requirements.
    But there is a way--we know it's working. We can actually 
map this, what they are doing for FIRST robotics experience, 
into some of the core curriculum requirements in terms of 
creative activities in science and math. That's where the 
barrier is, to actually bringing key stakeholders together and 
having a discussion.
    Ms. Brooks. Thank you. Thank you.
    I yield back.
    Mr. Burgess. The gentlelady yields back. The Chair thanks 
the gentlelady. Chair recognizes the gentleman from 
Massachusetts, 5 minutes for your questions, please.
    Mr. Kennedy. Thank you, Chairman.
    Thanks again to all the witnesses for coming in and for 
your testimony earlier.
    I know that this hearing isn't about specifically 
autonomous cars, but autonomous cars are a type of robot that 
will soon be entering our daily lives and they clearly present 
some of the ethical issues that come up in the realm of 
robotics.
    Science Magazine recently highlighted a series of surveys 
to determine consumer attitudes towards autonomous cars.
    Their researchers found that survey participants generally 
support the idea of autonomous cars that might sacrifice 
passengers to save people outside the vehicle, but they don't 
actually want to ride in those cars. In other words, people 
generally choose to save themselves. I'm sure it isn't a huge 
shock to anybody.
    The survey illustrates, though, the so-called trolley 
problem when faced with two negative scenarios. How do you 
choose?
    So, Dr. Jones, the example of autonomous cars: Without 
artificial intelligence, a person is going to have to make the 
decision on how to program the car.
    Should it be programmed to protect the passenger at the 
expense of others? The other way around? How do you make that 
judgment call? It's a difficult question. But what's happening 
now with autonomous cars and the types of robots? And if you 
play out that hypothetical, if you will for me, I'd love to get 
your guidance on that judgment.
    Dr. Jones. I think that right now is the perfect time to 
answer how we answer that question, which is a great policy 
problem, and there are two really innovative ideas that I've 
heard recently. I love the trolley problem. Even a 2-year-old 
can make a choice about a trolley problem.
    There is a YouTube video where he moved all of the people 
to one side and then runs over all of them. That's one way you 
could. But the----
    Mr. Kennedy. Which 2-year-old was that exactly?
    Dr. Jones. Not my 2-year-old. The other idea is that, why 
is this a decision that is automatic in every vehicle? The 
trolley problem asks that individual to look at a moral 
situation and decide what are your ethics here, and now we say, 
how do we put this in every single car?
    And so Jason Millar argues that that should be a setting. 
When you get a driverless car, it is your setting just like a 
trolley problem would be, it is a setting that said, you want 
to run over the kittens or do you want to, you know, drive off 
the cliff?
    So that is one idea, is to keep autonomy in the hands of 
the user for ethical questions, which in itself is an ethical 
design choice.
    The other is a Web site called Moral Machines from MIT that 
is crowdsourcing people's ideas, what they should do, how the 
car should be designed, not based on the ethics of the engineer 
but based on what the general public's ideas of ethics are in 
any given moment, and then those would be embedded into the 
car.
    And so you have less of the ethics of Silicon Valley and 
the choices of Silicon Valley--and other places, I don't mean 
to--as sort of a computer--robotics, that's not really true--
washing into DC and asking DC to respond to it.
    And I think that what these innovative ideas are doing is 
saying let's all participate in the design and ethical choices 
that are going into these technologies. And so those are just 
two alternatives, because there is no right answer to the 
trolley problem. That's why it's a great--that's why it's a 
great question.
    Mr. Kennedy. Dr. Kamen?
    Mr. Kamen. I think you can reduce these to philosophical 
esoteric discussions, which are fun, and maybe there is no 
perfect answer.
    A more basic question might be, in reality this year we'll 
kill 42,000 people on the highways with drivers that are 
tweeting or not paying attention or are drunk.
    We all know that if a single autonomous vehicle tomorrow 
hurt or killed somebody, there would be a major national debate 
about whether there should be another vehicle like that for the 
foreseeable future.
    Yet, every year for decades we kill tens of thousands of 
people. We hospitalize millions of people. It's the devil we 
know.
    Instead of solving a very esoteric question, you might ask 
how soon will it be that at least augmented systems would make 
cars so much safer that, instead of arguing about whether they 
should be allowed, we should start arguing about whether we 
should be able to sell vehicles that don't have these systems. 
Because we know how many people we are killing all the time.
    Mr. Kennedy. And at the risk of getting into that 
philosophical debate, I would agree with you that we say, let's 
move forward because, look, if we can reduce that from 42,000 
to one, obviously, that's an extraordinary--or to zero or to 
whatever it is, to less than 42,000--that's an extraordinary 
innovation, and we want to incentivize that.
    The question, basically, and perhaps you can say a little 
bit of expertise in the seven seconds I'll give you, but if it 
comes down to essentially an algorithm of saying if-then, 
right, in a complex if-then decision tree for a computer code, 
that is then scaled up across every single car, that is a 
choice that somebody's got to make.
    So I'm not, you know, asking so much what that right 
decision is but what's the right way for evaluating how we make 
those decisions, understanding that, if we can make progress on 
this, that's tremendous and we don't want to stop that 
innovation. But it does bring up ethical issues that we haven't 
had to confront in this scenario before.
    Mr. Kamen. And I guess all I would say is those are 
fantastic debates to have and, as we all know, the good is the 
enemy of the great.
    I guess what I would come back to say, however, is we 
should discuss those issues and what the available technologies 
are in the context of the real alternatives and we should be 
accelerating the use of these technologies that overall will 
hugely reduce injuries and deaths because these technologies 
don't get distracted.
    Inevitably, as we said before, every powerful technology 
can have mischievous and nefarious users. Every powerful 
technology will eventually show a weakness or need to be 
improved.
    But the day we start saying, because of those issues we 
will slow down or stop progress, is the day we are in big 
trouble.
    Mr. Burgess. Gentleman yields back. Chair thanks the 
gentleman.
    I believe we are going to have time for a second round, if 
anyone wishes to stay. When we initiate that then, Mr. Kamen, 
I'm going to stay with you on that same concept.
    And we had a tragic accident in our district with a 
distracted driving situation where four women--two in one car, 
two in the other--head-on collision, they all died.
    And so lane departure warning device that--you know, you're 
right. You almost had--there should be like anti-lock brakes. 
There should be, like, a supplemental restraint device or an 
airbag or a seatbelt.
    It almost should be standard equipment, especially in the 
day and age where we all have a device that could potentially 
distract us while we are driving.
    So I think that is a powerful concept and one which, of 
course, in this subcommittee we'll continue to explore because 
we have the National Highway Traffic Safety Administration 
under our jurisdiction.
    So I appreciate your comments there. Just more broadly, and 
you now have touched upon something that I kind of debated 
whether or not I should bring up. But just let's talk--we have 
got a panel of experts.
    I mean, we live under the tyranny of Federal agencies--at 
least, that's my opinion. Mr. Kennedy may disagree. Federal 
Trade Commission, Consumer Product Safety Commission, National 
Highway Traffic Safety Administration is just this 
subcommittee's jurisdiction.
    But there is also the Department of Labor, Health and Human 
Services, Department of Energy, Department of Education, 
Department of Energy--I'm sorry, Department of Commerce. I 
almost had a Rick Perry moment there for a minute. Department 
of Commerce. So how do you see the intersection of all these 
Federal agencies, and they don't make anything neat or cool 
like you all do. They write regulations, to regulate the neat 
and cool stuff that you all do.
    I know it's a big discussion, but as briefly as you can, 
could you just kind of give us some sense of the direction of 
how the regulatory environment should proceed in this very new 
area?
    Mr. Kamen, we will start with you and just work down the 
table, if you would.
    Mr. Kamen. Well, I can give you one very relevant to the 
self-driving car, I think, because you have a regulatory 
agency, NHTSA, and you have one called the FAA. And there is a 
lesson here.
    When I learned to fly, you had simple autopilots. They 
weren't very good and they could get you wings--they could do a 
few simple things.
    But you were very clearly told when you go take your flight 
test, you many not turn that on. It was a crutch. They want to 
make sure you could really fly that plane. You're not allowed 
to use it.
    Over the decades, as those things got better, they started 
requiring them in their sophisticated aircraft because when 
you're doing mach-point-8 and you're coming in to a very low 
ceiling, no human is as good as that autopilot, and then they 
went to allowing you to use it, then testing you on how you use 
it.
    Then they made it part of what's called the MEL, the 
minimal equipment list: You are not allowed to fly this 
airplane under these conditions unless that thing is working 
and is on.
    I think we shifted. The FAA has demonstrated, we went from 
people have to fly to it's not safe unless that thing is 
working and you legally can't do it and you wouldn't want to 
get on an airliner traveling around this country if that 
autopilot on minimum conditions that was going to land coming 
out that fog and touching down two seconds later. It's not 
legal to do it. It's not safe to do it.
    I think, certainly, in your lifetime, the question is going 
to be with somebody sitting up there, Should we allow people to 
drive cars? I know they think it's fun, but this is so 
dangerous that allowing them that privilege of running around 
at 60 miles an hour with a 3,000-pound machine and we can't be 
sure they are not drunk and tired, I'm not sure we should allow 
that anymore.
    That's why we have autopilots, and you're going to see that 
change happen. But human understanding always lags the rate at 
which technical opportunities arise, and it's always the next 
generation that adopts it.
    You know, what was indefensible to your parents was 
indispensable to you, and what your kids will think of as 
normal you will be concerned about. Technology really is 
anything that wasn't available when you were a kid.
    But I think NHTSA should take a lesson from FAA. They both 
regulate critical activities, but as we see technology 
developing, we know there are loopholes.
    We know there are disasters. We know things can go wrong. 
But that shouldn't present an alternative that we don't 
aggressively go after improving.
    Mr. Burgess. Very well. Dr. Kota.
    Dr. Kota. A different context--I was making a similar 
statement about how FDA could potentially take some ideas from 
FAA.
    I have had a little bit of experience working on aircraft 
designs, and what I was surprised to note is that--which many 
of you probably know already--if you are designing any new 
component or system, what are released for an aircraft, there 
are a clear set of guidelines and regulations for what's safe 
and what's not--and, by the way, NHTSA, FDA, FAA, they all care 
about safety. I'm glad they do.
    But the way the FAA works--Dean, you probably know DERs--
they have experts who are authorized----
    Mr. Kamen. DER is designated engineering representative.
    Dr. Kota. Designated engineering--yes. DER is for FAA. So 
if you are a small business or a large business, they work with 
you to make sure you are following the proper regulations so 
you are not spending three years designing, building and going 
and finding out that, oh, the FAA doesn't accept it.
    These regulations are meant for the right reasons and also 
they actually help accelerate innovation, if they do it right. 
So on that note, if similar DERs we can have not only with 
NHTSA but also with even FDA and others, too, I think that's a 
very good practice.
    Mr. Burgess. I'm going to suspend that question temporarily 
and go back to Mr. Kennedy for 5 minutes for questions, please.
    Mr. Kennedy. I'm happy to yield you another 3 minutes if 
you want.
    Mr. Burgess. Very well. We'll continue on the regulatory 
environment going forward.
    Dr. Jones.
    Mr. Kennedy. I'd just like the record to reflect that he 
said that regulation accelerates innovation. So there you go.
    Mr. Burgess. I wish it could. I was asking the panel.
    Dr. Jones. I can repeat it, if that's helpful.
    I think that it is important to remember that, like Mr. 
Kamen said, when we talk about robotics AI, we are talking 
about technology. It's just a really broad term and so the 
ethical issues with drones are not the same ethical issues as 
with driverless cars.
    So it would be very hard to sit down and say, How do we 
solve all of the ethical problems with robotics with using the 
same mechanism?
    And so I think inevitably these technological advancements 
occur within sectors.
    Mr. Burgess. I will interrupt you just for a moment because 
so many times at the Federal agency level it is putting the 
square peg in a round hole. I mean, that's what they do.
    Dr. Jones. So the FAA handling drones and the 
transportation people handling driverless cars causes lots of 
problems and I was at a Department of Homeland Security 
roundtable, I guess you would call it, that was also sponsored 
by NSF, and what it did was brought these people together and 
we realized that, OK, a lot of these drone problems are not the 
same problems as the driverless cars, and that's fine.
    But there were some shared problems and there was some 
policy innovation that was happening in the driverless car that 
had not occurred in the drone area.
    And so I think that there were huge benefits to bringing 
everyone to the table, and I think that a great role for the 
Federal Government is saying, you guys have to keep talking to 
each other, you have to keep coming to the table. We don't want 
redundancies that I think can occur across agencies.
    And this was a two-day event where vocabulary was shared 
that we realized we were talking over each other and using 
different words for the same things. And so it was a great use 
of time, and I think that a really simple what can we do--it 
just continued to create these deliberative spaces.
    Mr. Burgess. Mr. Burnstein, either your thoughts or your 
association's thoughts on the regulatory environment going 
forward and its ability to facilitate or impede development.
    Mr. Burnstein. Well, in preparation for this hearing, I 
talked to some of our members about that, and they don't see 
regulatory issues as a major problem in preventing them from 
advancing robotics.
    They did talk about some of the issues related to safety. 
So our association developed the American National Robot Safety 
Standard, and when you got to this area of collaborative 
robots, right, so the OSHA inspectors knew about when the robot 
was behind a fence how to treat that.
    But now we have these collaborative robot installations 
that are there, and it's different from region to region, and 
it's also different from country to country.
    And so our members are saying, look, we set up a safe 
application here in the U.S., but then when we go to Canada we 
got to deal with changing it to meet another safety regulation.
    Is there some way that these international applications 
that are safe in one country can be seen as safe in the others? 
Is there something the Government can do on that?
    But that's as far as it went in terms of the regulatory 
discussion.
    Mr. Burgess. Very well.
    The Chair recognizes the gentleman from Massachusetts, 5 
minutes for questions, please.
    Mr. Kennedy. Thank you, Mr. Chairman.
    Just keep it, if I can, to 30 seconds for each of you. 
Given that the issues that you underscored in your testimony 
and the questions, 30 seconds each.
    What recommendations would you give to Congress as we try 
to balance these issues and Incentivize the innovation going 
forward? What should we be thinking about? What should we be 
talking about, and what should we do and what shouldn't we do? 
Thirty seconds. Dr. Kamen.
    Mr. Kamen. If you wanted the answer related to regulation, 
I think any rational person realizes well-established 
regulations that allow people to interact consistently--there 
would be no Internet.
    Clearly, a regulatory environment can be hugely useful. 
Unfortunately, the time it takes to get clarity and get some of 
these regulations in place as technology is moving faster and 
faster is making the time difference between when the thing is 
possible to when the regulation has clarity is slowing things 
down, and there is a natural incentive of business to move 
faster and faster and there is a natural incentive of 
regulators to be more and more conservative and concerned, and 
that gap is getting so large that it's slowing down access to 
medical miracles.
    It's slowing down opportunities. So I would urge you to 
find a way to make sure that all the regulators are highly 
incentivized to do things quickly, even if it's incrementally, 
to do it quickly and do it with certainty.
    Mr. Kennedy. Thank you.
    Dr. Kota.
    Dr. Kota. Again, sir, well said. I'd just add one more 
point. Just going back to things like DER is what FAA does. 
Let's find analogous components in other NHTSA and FDA and what 
have you, from a regulation point of view.
    One more thing I want to add is that the strategic and 
coordinated investment by the Federal Government, not each 
agency running in different directions, if you want true 
innovation we need to connect the dots.
    So the best ideas coming at a national science forum, from 
NASA and the Department of Defense, you know, leveraging the 
procurement capability of the Department of Defense.
    So these are the things we can connect the dots and 
accelerate innovation, including regulation. That's one 
important thing I want to suggest.
    Mr. Kennedy. Thank you.
    Dr. Jones.
    Dr. Jones. I would suggest that the balance of pros and 
cons is adjusted. I think that people are left out when 
technology advances and often the policies that we put choose. 
We just say, ``Here are the pros, here are the cons. The pros 
outweigh the cons, and so we are making this choice.'' But 
instead to embrace the cons as part of the policy solution 
itself, and I think we've heard a lot about not just job 
displacement today but also what do we do with the displaced.
    That's all part, I think, of the same policy. Not a choice 
to say, well, these factories have these benefits but to make 
sure that people who don't design and don't have these 
technologies are also part of the policy equation.
    Mr. Kennedy. Thank you.
    Mr. Burnstein. I would say continue to support the National 
Robotics Initiative. That has a major impact around the world 
in drawing attention to the importance of robotics.
    And in the U.S. I think that stimulated innovation. I think 
that we need to continue establishing centers that get the 
technology that's being developed in the U.S. into the hands of 
small and medium-sized companies.
    We have some mechanism in place now. I think we could do 
more, and I think the training issue is very important. We have 
to prepare the workforce for the jobs of the future and, as I 
said, the jobs today.
    The number-one challenge our members face: They can't fill 
all the jobs that they have open today.
    Mr. Kennedy. Thank you.
    Mr. Burgess. Gentleman yields back.
    Seeing that there are no further Members wishing to ask 
questions from this panel, I do want to thank our witnesses for 
being here today. It's been a very good and lively discussion, 
and I look forward to further discussions on this in the 
future.
    So, pursuant to committee rules, I will remind Members they 
have 10 business days to submit additional questions for the 
record, and I ask the witnesses to submit their response to 
those questions within 10 business days upon receipt of the 
questions.
    Without objection, then, the subcommittee is adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
